No.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

THE ROUGE HOUSE, LLC
Petitioner

y.
308 DECATUR-NEW ORLEANS, LLC,
Respondent

 

CERTIFICATE OF PROOF OF SERVICE

Lemests alnsendo swear or declare that on this date, Ate stl , 2021 , as required
by Supreme Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days. The names and
addresses of those served are as follows:

 

Chauvin Kean

Kean Miller LLP

909 Poydras Street

Suite 3600

New Orleans, Louisiana 70112

Ernest J aes
